No. _ _ _ _ __

Jn tbt

~upreme <tourt of tbe mlniteb ~tate~
TONY BARKSDALE,
Petitioner,
V.

JEFFERSON S. DUNN,
Respondent.

PROOF OF SERVICE
'I, Steven M. Schneebaum, a Member of the Bar of this Court, do declare that
on this 27 th day of November, 2020, as required by Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on counsel for Respondent, by
sending the above documents by email, addressed to Beth Jackson Hughes, Esq.,
Assistant Attorney General of the State of Alabama and counsel for Respondent, at
Beth.Hughes@AlabamaAG.gov. Ms. Hughes has consented to accept email service in
lieu of a paper copy. No other person is required to be served,
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 27, 2020, at Washington, D.C.

~~-----/4~
Counsel of Record for Petitioner

